Appendix A-1
PUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
_____________
No. 20-1408
_____________
MICHAEL ZITO; CATHERINE ZITO,
Plaintiffs – Appellants,
v.
NORTH CAROLINA COASTAL RESOURCES
COMMISSION,
Defendant – Appellee.
------------------------------------NORTH CAROLINA COASTAL FEDERATION,
Amicus Supporting Appellee.
_____________
Appeal from the United States District Court for the
Eastern District of North Carolina, at Elizabeth City.
James C. Dever III, District Judge. (2:19-cv-00011-D)
_____________
Argued: May 4, 2021
Decided: August 9, 2021
_____________
Before GREGORY, Chief
THACKER, Circuit Judges.

Judge,

MOTZ,

and

Appendix A-2
_____________
Affirmed by published opinion. Chief Judge Gregory
wrote the opinion, in which Judge Motz and Judge
Thacker joined.
_____________
ARGUED: J. David Breemer, PACIFIC LEGAL
FOUNDATION,
Sacramento,
California,
for
Appellants. Ryan Y. Park, NORTH CAROLINA
DEPARTMENT OF JUSTICE, Raleigh, North
Carolina, for Appellees. ON BRIEF: Glenn E. Roper,
North Highlands, Colorado, Erin E. Wilcox, PACIFIC
LEGAL FOUNDATION, Sacramento, California, for
Appellants. Joshua H. Stein, Attorney General,
Sarah G. Boyce, Deputy Solicitor General, Mary
Lucasse, Special Deputy Attorney General, Marc
Bernstein, Special Deputy Attorney General, NORTH
CAROLINA DEPARTMENT OF JUSTICE, Raleigh,
North Carolina, for Appellee. Ramona H. McGee,
Sierra B. Weaver, Elizabeth R. Rasheed, SOUTHERN
ENVIRONMENTAL LAW CENTER, Chapel Hill,
North Carolina, for Amicus North Curiae.
_____________
GREGORY, Chief Judge:
This case asks whether a Fifth Amendment
takings claim against the North Carolina Coastal
Resources Commission (the “Commission”) is barred
by State sovereign immunity. When the Commission
denied Plaintiffs Michael and Catherine Zito (the
“Zitos”) permission to rebuild their vacation home due
to environmental regulations, the Zitos brought suit
in federal court, claiming that the State deprived
them of the value of their property and committed a

Appendix A-3
taking under the Fifth Amendment. The district court
granted the State’s motion to dismiss for lack of
subject matter jurisdiction due to the State’s
immunity from suit in federal court. We affirm the
district court’s dismissal.
I.
In 2008, the Zitos purchased a beachfront house
and lot (the “Property”) in South Nags Head, North
Carolina. The Property is located on one of the State’s
barrier islands, a system of narrow islands that run
along the State’s coast. Between 2008 and 2016, the
Zitos used the house as a vacation home and rental
property. But on October 10, 2016, the house caught
fire and burned to the ground. Following the fire, the
Zitos sought to rebuild the house on the same lot.
Given its location, the Zitos’ Property is governed
by North Carolina’s Coastal Area Management Act
(“CAMA”). Enacted in 1974, CAMA created the
Commission to implement rules regulating land-use
planning,
development
permits,
and
beach
management and restoration along North Carolina’s
coasts.
N.C.
Gen.
Stat.
§§
113A103(2), -107, -110, -120, -134.11. One of CAMA’s goals
is “[t]o [e]nsure that the development or preservation
of the . . . coastal area proceeds in a manner consistent
with the capability of the land and water for
development, use, or preservation based on ecological
considerations.” Id. § 113A-102(b)(2).
To do so, CAMA requires coastal property
development to be set back a certain distance from the
vegetation line—the first line of natural vegetation
which marks the boundary between the beach and

Appendix A-4
more stable land. 15A N.C. Admin. Code 07H
.0305(a)(5), .0306(a)(1). These set-back requirements
protect property owners from coastal storms and
encroaching waters while also preventing disturbance
to the beaches and dunes that act as buffers for the
property and environment further inland. See id. at
.0306(a); Br. of N.C. Coastal Fed’n, as Amicus Curiae
in Support of Appellee at 11–12. Under CAMA,
buildings with less than 5,000 square feet must be set
back a distance at least 60 feet or 30 times the local
rate of erosion, whichever is farther. 15A N.C. Admin.
Code 7H.0306(a)(5)(A). But buildings of less than
2,000 square feet built before June 1, 1979 fall under
a grandfather provision, requiring the property to be
set back only 60 feet from the line of vegetation. 15A
N.C. Admin. Code 7H.0309(b).
Though the Zitos’ Property qualifies for the
grandfather provision, it fails to satisfy the 60 feet setback limit. Based on an October 2017 survey, the
Property is currently set back only 12 feet from the
vegetation line. In 2018, the coastline by the Property
eroded at an average rate of six feet per year. The next
year, the average rate of erosion climbed to seven feet
per year. According to amicus curiae, coastal erosion
and rising sea levels could cause the Property to be
underwater by 2024. Br. of N.C. Coastal Fed’n, as
Amicus Curiae in Support of Appellee at 7. 1
The effects of annual erosion are offset, to some extent, by the
State’s beach renourishment projects. North Carolina has
carried out beach renourishment projects in 2010 and 2019. The
2019 renourishment project appears to have still been in
progress in June 2020, but the record does not indicate whether
the 2019 project is now complete or whether it has affected the
setback lines. See J.A. 55.

1

Appendix A-5
To enforce its set-back regulations, CAMA
requires a permit for property development that will
affect “any area of environmental concern,” such as
the barrier islands where the Property is located. N.C.
Gen. Stat. § 113A-118(a). To acquire a minor permit—
for the construction of a small residential building,
such as a house 2—individuals must apply to the local
city or county; if the initial application is denied,
applicants may seek administrative review or a
variance from the Commission. Id. §§ 113A118(b), -120.1, -121(b), -121.1; 15A N.C. Admin. Code
07J.0201.
The Zitos applied for a permit from the Town of
Nags Head. The Town’s local permit officer denied the
application because the Property did not meet
CAMA’s set-back requirements. The Zitos then filed a
petition for a variance with the Commission. After
considering the petition at a public hearing, the
Commission issued its Final Agency Decision denying
the variance on December 27, 2018. When notifying
the Zitos of the denial, the Commission also informed
them of their right to appeal the decision in state
superior court.
The Zitos filed suit in federal court, arguing that
CAMA’s restrictions amounted to an unconstitutional
taking. The Commission filed a motion to dismiss for
lack of subject matter jurisdiction, claiming that the
Though the Zitos wished only to replace the house that had
previously been built on the lot, the Commission’s regulations
consider the “[r]eplacement of structures damaged or destroyed
by natural elements, fire or normal deterioration” to be
“development [that] requires CAMA permits.” 15A N.C. Admin.
Code 7J .0210.
2

Appendix A-6
suit was barred by State sovereign immunity. The
district court agreed with the Commission. First, it
found that the Commission qualifies as an arm of the
State subject to the protections of sovereign
immunity. Zito v. N.C. Coastal Res. Comm’n, 449 F.
Supp. 3d 567, 577–79 (E.D.N.C. 2020). It then relied
upon this Court’s decision in Hutto, where we held
that “the Eleventh Amendment bars Fifth
Amendment taking claims against States in federal
court where the State’s courts remain open to
adjudicate such claims.” Id. at 576 (quoting Hutto v.
S.C. Ret. Sys., 773 F.3d 536, 552 (4th Cir. 2014)).
Determining that North Carolina’s Constitution
permits individuals to bring takings claims in state
court, the district court concluded that Plaintiffs’
claims against the State were barred by sovereign
immunity in federal court. Id. at 580–83. The Zitos
appealed.
II.
A.
State sovereign immunity presents a question of
law that we review de novo. See Hutto, 773 F.3d at
542. Because sovereign immunity is waivable, this
Court treats it “akin to an affirmative defense,”
meaning that the defendant bears the burden of
demonstrating that sovereign immunity applies. Id.
at 543.
The Zitos do not dispute that the Commission is
an arm of the State, such that sovereign immunity
may apply. But they argue that the Fifth
Amendment’s Takings Clause overcomes State
sovereign immunity.

Appendix A-7
The Eleventh Amendment states that “[t]he
Judicial power of the United States shall not be
construed to extend to any suit in law or equity,
commenced or prosecuted against one of the United
States by Citizens of another State, or by Citizens or
Subjects of any Foreign State.” U.S. Const. amend. XI.
While courts—including this one—frequently refer to
States’ immunity from suit as “Eleventh Amendment
immunity,” see, e.g., Hutto, 773 F.3d at 542, the phrase
is “something of a misnomer, for the sovereign
immunity of the States neither derives from, nor is
limited by, the terms of the Eleventh Amendment.”
Alden v. Maine, 527 U.S. 706, 713 (1999). Rather,
“States’ immunity from suit is a fundamental aspect
of the sovereignty which the States enjoyed before the
ratification of the Constitution, and which they retain
today . . . except as altered by the plan of the
[Constitutional] Convention or certain constitutional
amendments.” Id.
The Fifth Amendment provides that “private
property [shall not] be taken for public use, without
just compensation.” U.S. Const. amend. V. The Zitos
contend that because the Fifth Amendment’s Takings
Clause is self-executing—guaranteeing a remedy of
just compensation—it reflects a Constitutional
structure that exempts takings claims from the
limitations of sovereign immunity. 3 While the
3 Plaintiffs briefly draw a comparison to the Bankruptcy Clause,
which the Supreme Court held to create a constitutional
exception to sovereign immunity. See Cent. Va. Cmty. Coll. v.
Katz, 546 U.S. 356, 373–78 (2006). But the Supreme Court has
since declared that this exception is “limited to the Bankruptcy
Clause” due to the “singular nature” of bankruptcy jurisdiction.
Allen v. Cooper, 140 S. Ct. 994, 1002 (2020). The Supreme Court
“view[s] bankruptcy as on a different plane, governed by

Appendix A-8
Takings Clause originally applied only to the federal
government, Plaintiffs argue that its incorporation to
the States in the Fourteenth Amendment abrogated
the sovereign immunity of States as well.
However, this Court adopted a different reading
of the Takings Clause and sovereign immunity in
Hutto, 773 F.3d at 540. In Hutto, South Carolina
public employees challenged a state law amending
pension benefits and contributions for public
employees who returned to work after retirement. Id.
They argued that changes to the law amounted to a
taking because the changes ended benefits and
required the employees to make additional
contributions. Addressing sovereign immunity, the
plaintiffs in Hutto made the same claim the Zitos
make here—that “sovereign immunity never bars a
constitutional takings claim” due to the Takings
Clause’s guarantee of just compensation. Id. at 551.
This Court disagreed. We observed that the
Supreme Court has recognized the surrender of State
sovereign immunity in six contexts:
(1) when a State consents to suit; (2) when a
case is brought by the United States or
another State; (3) when Congress abrogates
sovereign immunity pursuant to Section 5 of
the Fourteenth Amendment or pursuant to
the Bankruptcy Clause; (4) when a suit is
brought against an entity that is not an arm
of the State; (5) when a private party sues a
principles all its own.” Id. at 1003. Its treatment of the
Bankruptcy Clause and sovereign immunity is therefore “a goodfor-one-clause-only holding.” Id.

Appendix A-9
state official in his official capacity to prevent
an ongoing violation of federal law; and
(6) when an individual sues a state official in
his individual capacity for ultra vires conduct.
Id. (citing S.C. State Ports Auth. v. Fed. Mar. Comm’n,
243 F.3d 165, 176–77 (4th Cir. 2001)). We declined to
create an additional, blanket exception for the
Takings Clause. Although “there is arguably some
tension” between the Fifth Amendment guarantee of
just compensation and the bar of sovereign immunity,
“that tension is not irreconcilable.” Id.
To resolve that tension, this Court compared the
Takings Clause to the Due Process Clause’s right to a
remedy for taxes collected in violation of federal law.
Id. at 551–52. “In a long line of cases,” the Supreme
Court “has established that due process requires a
‘clear and certain’ remedy for taxes collected in
violation of federal law.” Reich v. Collins, 513 U.S.
106, 108–09 (1994) (citing McKesson Corp. v. Div. of
Alcoholic Beverages and Tobacco, Fla. Dep’t of Bus.
Regulation, 496 U.S. 18 (1990) and “the long line of
cases upon which McKesson depends”). “[D]espite the
constitutional requirement that there be a remedy,
the Supreme Court expressly noted in Reich . . . that
the sovereign immunity that States enjoy in federal
court, under the Eleventh Amendment, does generally
bar tax refund claims from being brought in that
forum.” Hutto, 773 F.3d at 110 (cleaned up).
Nevertheless, Reich held that state courts must allow
suits to recover taxes unlawfully collected, the
“sovereign immunity [that] States traditionally enjoy
in their own courts notwithstanding.” Reich, 513 U.S.
at 110. “Reasoning analogously,” this Court concluded

Appendix A-10
that “the Eleventh Amendment bars Fifth
Amendment taking claims against States in federal
court when the State’s courts remain open to
adjudicate such claims.” Hutto, 773 F.3d at 551. 4
B.
The Zitos argue that the Supreme Court’s ruling
in Knick v. Township of Scott, 139 S. Ct. 2162 (2019)
undermined Hutto’s reasoning. Because Knick held
that plaintiffs can bring a takings claim in federal
court, regardless of state remedies available, the Zitos
believe Knick abrogated Hutto’s rule applying
sovereign immunity in federal court if state courts are
open to such claims.
Knick addressed the substantive requirements of
a takings claim: It decided when the plaintiff has
“suffered a violation of his Fifth Amendment rights”
and is “able to bring a ‘ripe’ federal takings claim in
federal court.” Knick, 139 S. Ct. at 2168. Before Knick,
the Supreme Court held in Williamson County that “if
a State provides an adequate procedure for seeking
just compensation, the property owner cannot claim a
violation of the Just Compensation Clause until it has
used the procedure and been denied just
compensation.” Williamson Cnty. Reg’l Planning
Comm’n v. Hamilton Bank of Johnson City, 473 U.S.
172, 195 (1985). In other words, the Williamson
County Court believed a person to be denied just
4 This Court “[did] not decide the question whether a State can
close its doors to a takings claim or the question whether the
Eleventh Amendment would ban a takings claim in federal court
if the State courts were to refuse to hear such a claim.” Hutto,
773 F.3d at 551.

Appendix A-11
compensation at the moment a person’s claim for
compensation was denied in state court. But
Williamson County inadvertently laid a “trap” for
potential litigants. Because the full faith and credit
statute, 28 U.S.C. § 1738, requires federal courts to
give preclusive effect to a state court decision,
Williamson County’s substantive definition of a
takings claim effectively prevented federal courts
from reviewing federal takings claims. Knick, 139 S.
Ct. at 2169. Reversing Williamson County, the
Supreme Court held in Knick that a property owner is
denied just compensation and has an actionable claim
in federal court “as soon as a government takes his
property for public use without paying for it.” Id. at
2170.
Knick did not address sovereign immunity, as it
involved a suit against a town. See Jinks v. Richland
Cnty., 538 U.S. 456, 466 (2003) (“[M]unicipalities,
unlike States, do not enjoy a constitutionally
protected immunity from suit.”). Thus, every circuit to
address Knick’s effect on sovereign immunity has
concluded that Knick did not abrogate State sovereign
immunity in federal court. See Williams v. Utah Dep’t
of Corr., 928 F.3d 1209, 1214 (10th Cir. 2019) (“But
Knick did not involve Eleventh Amendment
immunity, which is the basis of our holding in this
case.”); Bay Point Props., Inc. v. Miss. Transp.
Comm’n, 937 F.3d 454, 456–57 (5th Cir. 2019) (“Nor
does anything in Knick even suggest, let alone require,
reconsideration of longstanding sovereign immunity
principles protecting states from suit in federal
court.”), cert. denied, 140 S. Ct. 2566 (2020); Ladd v.
Marchbanks, 971 F.3d 574, 579 (6th Cir. 2020) (“[T]he

Appendix A-12
Court’s opinion in Knick says nothing about sovereign
immunity.”), cert. denied, 141 S. Ct. 1390 (2021).
To sidestep this fact, the Zitos suggest that Knick
indirectly altered the sovereign immunity framework
by recognizing the self-executing nature of the
Takings Clause in federal court. But the Supreme
Court recognized the self-executing nature of the
Takings Clause in federal court well before Knick. See
Jacobs v. United States, 290 U.S. 13, 16 (1933)
(“[S]uits [ ] based on the right to recover just
compensation for property taken by the United States
. . . . rested upon the Fifth Amendment. Statutory
recognition was not necessary.”). Knick itself makes
this point when quoting Jacobs to explain that the
form of a state remedy does not qualify the
substantive takings claim because the claim “rest[s]
upon the Fifth Amendment.” Knick, 139 S. Ct. at 2170
(quoting Jacobs, 290 U.S. at 16). So Knick did nothing
new with respect to the self-executing nature of the
Takings Clause in federal court. 5
Additionally, Knick’s discussion of the Takings
Clause does not imply any link between the selfexecution of the Takings Clause and the elimination
of sovereign immunity. To the contrary, the Supreme
Court’s analysis compares the Takings Clause to other
5 This Court likewise recognized the self-executing nature of the
Takings Clause in Hutto. See 773 F.3d at 551–52 (“Just as the
Constitution guarantees the payment of just compensation for a
taking, so too does the Due Process Clause provide the right to a
remedy for taxes collected in violation of federal law.”); id.at 553
(quoting other circuits stating that the “self-executing” nature of
a takings claim does not override sovereign immunity in federal
court).

Appendix A-13
constitutional rights that may be subject to sovereign
immunity. The Court wrote,
Although Jacobs concerned a taking by the
Federal Government, the same reasoning
applies to takings by the States. The
availability of any particular compensation
remedy, such as an inverse condemnation
claim under state law, cannot infringe or
restrict the property owner’s federal
constitutional claim—just as the existence of
a state action for battery does not bar a
Fourth Amendment claim of excessive force.
Knick, 139 S. Ct. at 2171. By drawing a comparison to
Fourth Amendment claims of excessive force, the
Supreme Court indicated that its analysis did not deal
with sovereign immunity, which otherwise limits
Fourth Amendment suits seeking damages against
States. Ultimately, the Knick Court expressed its
belief that Williamson County made the Takings
Clause an inferior right “among the provisions of the
Bill of Rights”; by reversing Williamson County, the
Court meant to “restor[e] takings claims” to equal and
“full-fledged status . . . among the other protections in
the Bill of Rights.” Id. at 2169–70; see also id. at 2177
(“Takings claims against local governments should be
handled the same as other claims under the Bill of
Rights.”). By treating the Takings Clause the same as
other constitutional rights, the Supreme Court
suggests that it remains subject to the same
limitations on those other rights—including sovereign
immunity. See Will v. Mich. Dep’t of State Police, 491
U.S. 58, 66 (1989).

Appendix A-14
Accordingly, Knick did not undermine Hutto,
where this Court held sovereign immunity to bar a
takings claim against a State in federal court if state
courts remain open to adjudicating the claim.
III.
We next consider whether North Carolina courts
remain open to adjudicating the Zitos’ takings claim.
The parties agree that state courts satisfy this
requirement if they provide a “reasonable, certain,
and adequate” means for challenging an action as a
taking and obtaining compensation if the challenge is
successful. See Oral Argument at 29:03–29:19;
Mountain Valley Pipeline, LLC v. 6.56 Acres of Land,
915 F.3d 197, 213 (4th Cir. 2019) (quoting Cherokee
Nation v. S. Kan. Ry. Co., 135 U.S. 641, 659 (1890)).
Though North Carolina’s Constitution generally
provides a cause of action for plaintiffs to bring
takings claims, see Corum v. Univ. of N.C., 413 S.E.2d
276, 289 (N.C. 1992), the Zitos contend that takings
claims against the Commission are governed by North
Carolina General Statutes § 113A-123(b)–(c), which
provides an “exclusive” procedure where invalidation
of the state action is the sole remedy. Because
invalidation does not compensate the plaintiff for any
temporary taking, the Zitos insist that North Carolina
courts do not provide an adequate avenue for just
compensation.
Section 113A-123(b) states that any person with a
recorded interest in land affected by a final order of
the Commission may “petition the superior court to
determine whether the petitioner is the owner of the
land in question” and “determine whether . . . the

Appendix A-15
order constitutes the equivalent of taking without
compensation.” N.C. Gen. Stat. § 113A-123(b). “Either
party shall be entitled to a jury trial on all issues of
fact, and the court shall enter a judgment . . . as to
whether the Commission order shall apply to the land
of the petitioner.” Id. “The method provided in this
subsection for the determination of the issue of
whether such order constitutes a taking without
compensation shall be exclusive and such issue shall
not be determined in any other proceeding.” Id. If the
court has determined the action to be a taking, and
the State still intends to regulate the property, then
the State must initiate eminent-domain proceedings
“under the provisions of Chapter 146 of the General
Statutes,” id. § 113A-123(c), which would result in
compensation. See N.C. Gen. Stat. §§ 136103, -104, -109, -112.
The Zitos, however, emphasize the outcome if the
state court rules the Commission’s action to be a
taking and the State does not pursue eminent-domain
proceedings (i.e., if the State agrees to cease the
regulatory restriction). To the Zitos, § 113A-123(b)
would invalidate the restriction but offer no
compensation for the temporary taking. In this
situation, the Commission asserts that the plaintiff
may bring a subsequent suit under the North Carolina
Constitution to obtain compensation for the
temporary taking. 6

6 At oral argument, the State represented that a plaintiff could
file a claim for compensation for the temporary taking the same
day that the state court found the Commission’s action to be a
taking. See Oral Argument at 39:12–40:08.

Appendix A-16
We agree with the Commission. Section 113A123(b) states that its procedure “shall be exclusive”
only “for the determination of the issue of whether
such
order
constitutes
a
taking
without
compensation.” N.C. Gen. Stat. § 113A-123(b)
(emphasis added). It does not state that this shall be
the exclusive procedure for determining all available
remedies. Because the North Carolina Constitution
provides an independent cause of action for plaintiffs
to seek damages for a takings claim, Corum, 413
S.E.2d at 289, it permits the Zitos to pursue damages
after establishing through § 113A-123(b) that the
regulation amounted to a taking.
Even if we assume that N.C. Gen. Stat. § 113A123(b) provides the exclusive remedy for a takings
claim brought against the Commission, North
Carolina’s constitutional guarantees would override
that limitation to the extent it prevented the redress
for a temporary taking. See Carolina Beach Fishing
Pier, Inc. v. Town of Carolina Beach, 163 S.E.2d 363,
371 (N.C. 1968) (“It is familiar learning that a citizen
may sue the State . . . for taking his private property
for a public purpose under the Constitution where no
statute affords an adequate remedy.”); Corum, 413
S.E.2d at 289 (“[I]n the absence of an adequate state
remedy, one whose state constitutional rights have
been abridged has a direct claim against the State
under our Constitution.”); Taylor v. Wake Cnty., 811
S.E.2d 648, 652 (N.C. Ct. App. 2018) (“A Corum claim
allows a plaintiff to recover compensation for a
violation of a state constitutional right for which there
is either no common law or statutory remedy, or when

Appendix A-17
the common law or statutory remedy that would be
available is inaccessible to the plaintiff.”). 7
For instance, in Midgett, a landowner sued the
State Highway Commission for a taking because its
construction of a nearby highway caused his property
to become flooded. Midgett v. N.C. State Highway
Comm’n, 132 S.E.2d 599, 602 (N.C. 1963), rev’d on
other grounds by Lea Co. v. N.C. Bd. of Transp., 304
S.E.2d 164 (N.C. 1983). Though North Carolina
provided an “ordinarily exclusive” statutory remedy
for the taking, the applicable condemnation statute
contained a statute of limitations that “would make a
recovery by the plaintiff in the instant case
impossible.” Id. at 608. Nevertheless, the North
Carolina Supreme Court held that the plaintiff’s
taking claim could be maintained under the State
Constitution. Id. The Court explained that the State
Constitution’s promise of just compensation for a
taking is not “susceptible of impairment by
legislation,” and where “no statute affords an
adequate remedy under a particular fact situation, the
common law will furnish the appropriate action for
adequate redress of such grievance.” Id.; see also Craig
Though this right of action arises from a state constitutional
right, North Carolina uses the same standard for determining
whether a taking has occurred under both the U.S. and North
Carolina Constitutions. See Finch v. City of Durham, 384 S.E.2d
8, 19 (N.C. 1989) (holding that a rezoning did not constitute a
taking under the North Carolina Constitution and that the
rezoning therefore did not constitute a taking under the U.S.
Constitution “for the same reasons”); Guilford Cnty. Dep’t of
Emergency Servs. v. Seaboard Chem. Corp., 441 S.E.2d 177, 183
(N.C. Ct. App. 1994) (“We find that these tests are consistent and
therefore analyze Seaboard’s state and federal constitutional
[takings] claims together.”).

7

Appendix A-18
ex rel. Craig v. New Hanover Cnty. Bd. of Educ., 678
S.E.2d 351, 356–57 (N.C. 2009) (reaffirming Midgett
and North Carolina’s “long-standing emphasis on
ensuring redress for every constitutional injury”).
In reply, the Zitos contend that even if they can
bring a takings claim for damages after § 113A-123(b)
proceedings, the statutory proceedings effectively
create an exhaustion requirement forbidden by the
Supreme Court in Knick. But again, the Zitos misstate
the holding of Knick. Knick prohibited the use of state
procedures as an exhaustion requirement for a
takings claim in federal court. See Knick, 139 S. Ct. at
2167. But Knick did not prohibit States from
establishing procedural requirements in their own
courts. Indeed, Knick reaffirmed Ruckelshaus v.
Monsanto Co., 467 U.S. 986, 1018 n.21 (1984), where
the Supreme Court upheld a federal statute that
“required the plaintiff to attempt to vindicate its
[takings] claim [ ] through arbitration before
proceeding [with their takings claim] under the
Tucker Act.” Knick, 139 S. Ct. at 2173. This
requirement was permissible because Congress “is
free to require plaintiffs to exhaust administrative
remedies before bringing constitutional claims” in
federal court. Id.; see also Ladd, 971 F.3d at 579 (“In
reaffirming [Ruckelshaus], the Court notes that
Congress can, as a condition of its waiver of sovereign
immunity in the Tucker Act, require takings plaintiffs
to exhaust administrative remedies before proceeding
to federal court.”). If Congress can condition its waiver
of federal sovereign immunity in federal court by
requiring plaintiffs to satisfy certain exhaustion
requirements, it follows that States may condition
their waiver of State sovereign immunity the same

Appendix A-19
way in their courts as well. See Felder v. Casey, 487
U.S. 131, 138 (1988) (“No one disputes the general and
unassailable proposition . . . that States may establish
the rules of procedure governing litigation in their
own courts.”).
Of course, there are limits on the procedural
constraints that the States may impose. The Supreme
Court has warned that state procedures violate the
Supremacy Clause if the procedures effectively
deprive plaintiffs of their federal rights. See id.
(“[W]here state courts entertain a federally created
cause of action, the ‘federal right cannot be defeated
by the forms of local practice.’”). For example, a State
may not adopt procedures that discriminate between
state and federal claims. See Haywood v. Drown, 556
U.S. 729, 738 (2009); Felder, 487 U.S. at 141. But the
Zitos’ arguments revolve around Knick, and they
otherwise offer no argument for why North Carolina’s
procedures might impede their federal rights in
violation of the Supremacy Clause. As explained
above, North Carolina’s procedures are consistent
with Knick; North Carolina’s procedures guarantee
the ability to challenge the Commission’s action as a
taking in state court; and if North Carolina’s statutes
do not provide an adequate constitutional remedy, the
North Carolina Constitution guarantees the Zitos the
ability to seek that remedy in state court.
Thus, North Carolina’s courts remain open for
takings claims. Under Hutto, this means that
sovereign immunity bars the Zitos’ claims against the
State in federal court. 773 F.3d at 552.

Appendix A-20
IV.
We recognize there must be sorrow in the Zitos’
loss of their home, and even more so in light of the
steadily rising swells of our oceans’ waters. But State
sovereign immunity bars their takings claims against
the Commission in federal court when North
Carolina’s courts remain open to adjudicating those
claims. For the foregoing reasons, we affirm the
district court’s judgment.
AFFIRMED

Appendix B-1
Filed March 27, 2020
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF NORTH
CAROLINA
NORTHERN DIVISION
No. 2:19-CV-11-D
MICHAEL ZITO, and
CATHERINE ZITO,

)
)
)
Plaintiffs, )
v.
)
)
NORTH CAROLINA
)
COASTAL RESOURCES
)
COMMISSION,
)
)
Defendant. )

ORDER

On March 6, 2019, Michael and Catherine Zito
(“the Zitos,” or “plaintiffs”) filed a complaint against
the North Carolina Coastal Resources Commission
(“the Commission”) alleging a taking of private
property without just compensation in violation of the
Fifth Amendment of the United States Constitution.
See Compl. [D.E. 1] ¶¶ 63-78. 1 The Zitos seek
declaratory relief, damages, just compensation,
reasonable attorney fees and costs, and all other
appropriate relief. See id. at 13. On August 9, 2019,
the North Carolina Coastal Federation (“the
1 On June 5, 2016, the Zitos waived count one of their complaint,
which alleged an “inverse condemnation” takings claim under
the North Carolina Constitution. See [D.E. 16] 1 n.1; cf. Compl.
¶¶ 48-62.

Appendix B-2
Federation”) moved to intervene as a matter of right
under Federal Rule of Civil Procedure 24(a)(2), or
alternatively, by permission under Federal Rule of
Civil Procedure 24(b) [D.E. 24]. On August 20, 2019,
the Commission moved to dismiss the complaint for
lack of subject-matter jurisdiction under Federal Rule
of Civil Procedure 12(b)(1) [D.E. 36]. On that same
date, the Commission amended its initial answer to
the complaint [D.E. 39]. On August 27, 2019, the Zitos
opposed the Federation’s motion to intervene [D.E.
40]. On September 5, 2019, the Federation replied
[D.E. 41]. On September 6, 2019, the Zitos responded
to the Commission’s motion to dismiss [D.E. 42]. On
September 20, 2019, the Commission replied [D.E.
44]. On September 25, 2019, the Zitos moved to clarify
the status of the stipulated administrative facts [D.E.
45]. On October 16, 2019, the Commission responded
[D.E. 49]. On October 24, 2019, the Zitos replied [D.E.
50].
As explained below, Hutto v. South Carolina
Retirement System, 773 F.3d 536, 542-43 (4th Cir.
2014), requires this court to hold that the Eleventh
Amendment bars the Zitos’ Fifth Amendment takings
claim. If the Zitos are to obtain relief on this claim,
they first must get such relief from the United States
Court of Appeals for the Fourth Circuit sitting en banc
or from the United States Supreme Court. Thus, the
court grants the Commission’s motion to dismiss [D.E.
36] and dismisses the complaint without prejudice for
lack of subject-matter jurisdiction. The court denies as
moot the Federation’s motion to intervene [D.E. 24]
and the Zitos’ motion to clarify the status of the
stipulated administrative facts [D.E. 46].

Appendix B-3
I.
The Zitos are residents of Timonium, Maryland
and own a beachfront lot at 10224 East Seagull Drive
in South Nags Head, North Carolina (“the property”).
See id. at ¶¶ 11-12. The Zitos bought the beachfront
lot in 2008 for $438,500 and the lot contained a 1,700
square foot home built in 1982. See id. at ¶¶ 12-13. On
October 10, 2016, a fire destroyed the Zitos’ home on
the property. See id. at ¶ 18. On July 31, 2017, the
Zitos sought to rebuild their home, with a total floor
area of 1,792 on a 32' x 28' footprint, and submitted a
North Carolina Coastal Area Management Act
(“CAMA”) Minor Permit application to the Town of
Nags Head’s CAMA Local Permit Officer (“LPO”) See
id. at ¶¶ 20, 26-27.
CAMA governs development of North Carolina’s
ocean areas and establishes various rules and
regulations. See id. at ¶¶ 20-22. These rules and
regulations include set-back requirements for oceanfront development on property within the Ocean
Erodible Area of Environmental Concern (“AEC”) that
are based on a combination of annual erosion rates,
the location of the first stable, natural vegetation line,
and the size of the building. See id. at ¶¶ 20-24; 15A
N.C. Admin. Code 7H.0304. Buildings of less than
5,000 square feet have a set-back line from the first
stable line of vegetation of at least 30 times the annual
erosion rate. See Compl. at ¶ 23; 15A N.C. Admin.
Code 7H.0306(5)(a). Buildings of less than 2,000
square feet built before June 1, 1979, fall under a
grandfather provision that establishes a reduced setback line of 60 feet from the line of vegetation, if the
standard set-back line would otherwise prevent

Appendix B-4
building. See Compl. at ¶ 24; 15A N.C. Admin. Code
7H.0309(b). For CAMA permits, the local coastal
governments are the initial decisionmakers, and
applicants can seek a variance from the Commission
if their initial permit is denied. See Compl. at ¶ 25.
The Zitos’ property falls within the AEC. See id.
at 29. The AEC official erosion rate is 6 feet per year,
which, when multiplied by 30 as required by CAMA,
results in a standard setback line of 180 feet from the
first line of stable vegetation. See id.; 15A N.C. Admin.
Code 7H.0306(5)(a). On April 26, 2018, the Town of
Nags Head LPO denied the Zitos’ CAMA Minor
Permit. See Compl. ¶ 32; Ex. C [D.E. 1-4]. The LPO
did so because the “[the Zitos’] home is setback
approximately 12 ft. landward of the static vegetation
line,” and thus did not meet CAMA’s requirements.
See Compl. ¶ 32; Ex. C [D.E. 1-4] 3.
After the denial, the Zitos filed a variance petition
with the Commission. See Compl. ¶¶ 25, 34. On
November 27, 2018, the Commission considered the
variance petition at a public hearing. See id. at ¶ 35.
On December 27, 2018, the Commission denied the
variance and issued a “Final Agency Decision.” See id.
at ¶ 36; Ex. D [D.E. 1-5]. In its “Final Agency
Decision,” the Commission concluded that the Zitos
failed to demonstrate the requisite hardship to qualify
for a variance. See Compl. ¶ 37; Ex. D [D.E. 1-5] 1116. On March 6, 2019, the Zitos filed this action and
sought declaratory relief, just compensation,
reasonable attorney fees and costs, and all other
appropriate relief.
On May 9, 2019, the Commission moved to
dismiss; the complaint, asserting three grounds for

Appendix B-5
dismissal: (1) under Rule 12(b)(1) of the Federal Rules
of Civil Procedure for lack of subject-matter
jurisdiction; (2) under the Eleventh Amendment’s
grant of sovereign immunity; and (3) under Rule
12(b)(6) of the Federal Rules of Civil Procedure for
failure to state a claim [D.E 13, 14]. On June 5, 2019,
the Zitos responded in opposition, and waived the
state law inverse condemnation takings claim in count
one of their complaint [D.E. 16]. On June 19, 2019, the
Commission replied [D.E. 17].
On June 21, 2019, the Supreme Court decided
Knick v. Township of Scott, 139 S. Ct. 2162 (2019). In
Knick, the Court overruled Wi11iamson County
Regional Planning Commission v. Hamilton Bank of
Johnson City, 473 U.S. 172 (1985), a case that had
formed a core part of the Commission’s motion to
dismiss. See Knick, 139 S. Ct. at 2167-68; [D.E. 14] 917. In Knick, the Court removed Williamson County’s
state-litigation requirement and held that a “property
owner has suffered a violation of his Fifth Amendment
rights when the government takes his property
without just compensation, and therefore may bring
his claim in federal court under [section] 1983 at that
time.” Knick, 139 S. Ct. at 2168. On June 26, 2019,
this court denied the Commission’s motion to dismiss
and motion for leave to file a supplemental
memorandum in light of Knick [D.E. 19]. See [D.E. 20,
21]. On July 10, 2019, the Commission answered the
complaint [D.E. 22], and on August 20, 2019, amended
its answer [D.E. 39].
On August 20, 2019, the Commission moved, for a
second time, to dismiss for lack of jurisdiction [D.E.
36] and filed a supporting memorandum with three

Appendix B-6
arguments [D.E. 38]. First, the Eleventh Amendment
bars the Zitos from asserting their federal takings
claim in federal court since they could have brought a
takings claim in state court. See [D.E. 38] 7-10; Hutto,
773 F.3d at 552. Second, and relatedly, the Eleventh
Amendment provides the Commission Eleventh
Amendment immunity in federal court because it is
an “arm of the state.” See [D.E. 38] at 10-20. Third,
Congress has not abrogated the Commission’s
Eleventh Amendment immunity, and the Commission
has not waived it. See id. at 21-24.
On September 6, 2019, the Zitos responded in
opposition [D.E. 42]. They argued that the Fifth
Amendment’s Just Compensation Clause is selfexecuting, that it is binding on the states through the
Fourteenth Amendment, and that the Eleventh
Amendment does not bar claims against states under
the Just Compensation Clause in federal court. See id.
at 7-10. The Zitos also argued that, even if the Just
Compensation Clause is not self-executing, they
cannot bring a takings claim in North Carolina state
court and thus the Eleventh Amendment should not
apply. See id. at 12-16. On September 20, 2019, the
Commission replied and argued that Hutto remains
binding precedent, that North Carolina state courts
remain open for the Zitos to assert their takings claim,
and that the court should not accept wholesale the
Zitos’
statement
of
facts
concerning
the
administrative and statutory scheme. See [D.E. 44].

Appendix B-7
II.
A.
The Fifth Amendment Takings Clause applies to
the States through the Fourteenth Amendment See,
e.g., Murr v. Wisconsin, 137 S. Ct. 1933, 1942 (2017);
Lingle v. Chevron U.S.A. Inc., 544 U.S. 528, 536
(2005). It provides that private property shall not “be
taken for public use, without just compensation.” U.S.
Const. amend. V. This prohibition “was designed to
bar Government from forcing some people alone to
bear public burdens which, in all fairness and justice,
should be borne by the public as a whole.” Armstrong
v. United States, 364 U.S. 40, 49 (1960). It applies to
temporary government actions as well as permanent
ones. See Tahoe-Sierra Pres. Council, Inc. v. Tahoe
Reg’l Planning Agency, 535 U.S. 302, 322 (2002); First
English Evangelical Lutheran Church v. Cty. of Los
Angeles, 482 U.S. 304, 318-19 (1987); Front Royal &
Warren Cty. Indus. Park Corp. v. Town of Front Royal,
135 F.3d 275, 285 (4th Cir. 1998).
“The paradigmatic taking requiring just
compensation is a direct government appropriation or
physical invasion of private property.” Lingle, 544
U.S. at 537. For example, when the government uses
its eminent domain power to condemn a person’s land
for some public purpose (such as to build a road or a
military base), the government has “taken” that land
and must pay just compensation for it. See, e.g., Ark.
Game & Fish Comm’n v. United States, 568 U.S. 23,
31-32 (2012); Stop the Beach Renourishment Inc. v.
Fla. Dep’t of Envtl. Prot., 560 U.S. 702, 713-15 (2010);
Lingle, 544 U.S. at 537; Tahoe-Sierra, 535 U.S. at 32122.

Appendix B-8
A taking also occurs when instead of
appropriating or invading private property, the
government undertakes “regulatory actions that are
functionally equivalent to the classic taking.” Lingle,
544 U.S. at 539; see Murr, 137 S. Ct. at 1942-43; Horne
v. Dep’t of Agric., 135 S. Ct. 2419, 2427 (2015). “[N]o
magic formula enables a court to judge, in every case,
whether a given government interference with
property is a taking.” Ark. Game & Fish Comm’n, 568
U.S. at 31; see Stop the Beach Renourishment Inc., 560
U.S. at 713. Nonetheless, the Supreme Court has
identified two situations in which a regulation will,
per se, constitute a taking. First, a regulation is a
taking if it authorizes a “permanent physical
occupation” of property. Loretto v. Teleprompter
Manhattan CATV Corp., 458 U.S. 419, 426 (1982); see,
e.g., Ark. Game & Fish Comm’n, 568 U.S. at 32.
Second, a regulation is a taking if it requires a
property owner to sacrifice all economically beneficial
use of the property, unless the regulation does no more
than enforce limits that “inhere in the title itself, in
the restrictions that background principles of the
State’s law of property and nuisance already place
upon land ownership.” Lucas v. S.C. Coastal Council,
505 U.S. 1003, 1029 (1992). 2
Regulations that fit neither per se rule are
evaluated using the multi-factor balancing test in
Penn Cent. Transp. Co. v. City of New York, 438 U.S.
104 (1978). See Horne, 135 S. Ct at 2427; Ark. Game
& Fish Comm’n, 568 U.S. at 31-32; Lingle, 544 U.S. at
538-39. The so-called “'Penn Central factors” include
This principle also applies under the North Carolina
Constitution. See, e.g., Helms v. City of Charlotte, 255 N.C. 647,
655-57, 122 S.E.2d 817, 824-25 (1961).
2

Appendix B-9
(1) the regulation’s economic impact on the claimant,
(2) the extent to which the regulation interferes with
the claimant’s reasonable, investment-backed
expectations, and (3) the character of the
government’s action. See Murr, 137 S. Ct at 1943;
Lingle, 544 U.S. at 538-39; Penn Cent., 438 U.S. at
124. A regulatory taking (just like a “classic taking”)
can be either permanent or temporary. See TahoeSierra, 535 U.S. at 322-23; Lucas, 505 U.S. at 1030 &
n.17; First English, 482 U.S. at 318-19; Sansotta v.
Town of Nags Head, 97 F. Supp. 3d 713, 729-30
(E.D.N.C. 2014).
B.
The Eleventh Amendment states, in full: “The
Judicial power of the United States shall not be
construed to extend to any suit in law or equity,
commenced or prosecuted against one of the United
States by Citizens of another State, or by Citizens or
Subjects of any Foreign State.” U.S. Const. amend. XI.
The Eleventh Amendment provides states with
“immuni[ity] from suits brought in federal courts by
her own citizens as well as by citizens of another
state,” a concept known as sovereign immunity.
Edelman v. Jordan, 415 U.S. 651, 663 (1974).
Historically, the “Fourth Circuit has ‘been unclear on
whether a dismissal on Eleventh Amendment
immunity grounds is a dismissal for failure to state a
claim under Rule 12(b)(6) or a dismissal for lack of
subject-matter jurisdiction under Rule 12(b)(1).’”
Kariuki v. Dep’t of Ins., No. 5:18-CV-341-D, 2019 WL
2559807, at *3 (E.D.N.C. June 20, 2019) (unpublished)
(quoting Andrews v. Daw, 201 F.3d 521, 524 n.2 (4th
Cir. 2000)), appeal dismissed, 2020 WL 1062217 (4th

Appendix B-10
Cir. Mar. 5, 2020) (per curiam) (unpublished). But the
Fourth Circuit recently held that “sovereign immunity
deprives federal courts of jurisdiction to·hear claims,
and a court finding that a party is entitled to sovereign
immunity must dismiss the action for lack of subjectmatter jurisdiction.” Cunningham v. Gen. Dynamics
Info. Tech., Inc., 888 F.3d 640, 649 (4th Cir. 2018)
(quotation omitted); see Ackerson v. Bean Dredging
LLC, 589 F.3d 196, 207 (5th Cir. 2009); Hill v. CBAC
Gaming LLC, No. DKC 19-0695, 2019 WL 6729392, at
*4 (D. Md. Dec. 11, 2019) (unpublished). Accordingly,
the court analyzes the Commission’s assertion of
Eleventh Amendment sovereign immunity under
Rule 12(b)(1).
A Rule 12(b)(1) motion to dismiss for sovereign
immunity under the Eleventh Amendment tests
subject-matter jurisdiction, which is the court’s
“statutory or constitutional power to adjudicate the
case.” Steel Co. v. Citizens for a Better Env’t, 523 U.S.
83, 89 (1998) (emphasis omitted). A federal court
“must determine that it has subject-matter
jurisdiction over [a claim] before it can pass on the
merits of that [claim].” Constantine v. Rectors &
Visitors of George Mason Univ., 411 F.3d 474, 479-80
(4th Cir. 2005). In considering a motion to dismiss for
lack of subject-matter jurisdiction, the court may
consider evidence outside the pleadings without
converting the motion into one for summary
judgment. See Evans v. B.F. Perkins Co., 166 F.3d 642,
647 (4th Cir. 1999). Although plaintiffs bear the
burden of establishing that this court has subjectmatter jurisdiction over their claims, see, e.g., Steel
Co., 523 U.S. at 104; Evans, 166 F.3d at 647;
Richmond, Fredericksburg & Potomac R.R. v. United

Appendix B-11
States, 945 F.2d 765, 768 (4th Cir. 1991), the party
asserting sovereign immunity bears the burden of
demonstrating that immunity. See Hutto, 773 F.3d at
543 (collecting cases).
In Hutto, the Fourth Circuit held that “the
Eleventh Amendment bars Fifth Amendment taking
claims against States in federal court where the
State’s courts remain open to adjudicate such claims.”
Hutto, 773 F.3d at 552 (emphasis omitted). Thus, to
dismiss a Fifth Amendment takings claim, Hutto
requires: (1) an entity to enjoy sovereign immunity
under the Eleventh Amendment and (2) the state to
provide an open forum to adjudicate such a takings
claim. See id. at 551-52.
The Zitos argue that the Eleventh Amendment
offers states, and their related. entities, no protection
against a Fifth Amendment takings claim in federal
court. See [D.E. 42] 7-11. Specifically, the Zitos
contend that given “the automatically-effective nature
of the damages remedy in the Just Compensation
Clause, the imposition of that Clause on the states
through the Fourteenth Amendment was the sole
congressional action needed to open states to takings
claims seeking damages.” [D.E. 42] 10-11. In order to
distinguish Hutto and to support their argument, the
Zitos cite footnote 9 in First English, 482 U.S. at 316
n.9. The Zitos then contend: (1) “the Hutto panel was
not presented with the full, Fourteenth Amendmentbased argument against sovereign immunity”; and
(2) the Hutto panel did not “consider the Supreme
Court’s decision in First English.” [D.E. 42] 11.
This court cannot ignore binding Fourth Circuit
precedent, even if the Zitos offer a persuasive

Appendix B-12
rationale to consider doing so. Just as a court of
appeals cannot overrule the Supreme Court, a district
court cannot overrule a court of appeals. See
Rodriguez de Quijas v. Shearson/Am. Express, Inc.,
490 U.S. 477, 484 (1989) (“If a precedent of [the
Supreme] Court has direct application in a case, yet
appears to rest on reasons rejected in some other line
of decisions, the Court of Appeals should follow the
case which directly controls, leaving to [the Supreme]
Court the prerogative of overruling its own
decisions.”). Hutto controls the disposition of this case,
and this court must follow it until either the Fourth
Circuit sitting en banc or the Supreme Court instructs
otherwise. See Agostini v. Felton, 521 U.S. 203, 237-38
(1997); United States v. Sterling, 724 F.3d 482, 501-02
(4th Cir. 2013); Waugh Chapel S., LLC v. United Food
& Commercial Workers Union Local 27, 728 F.3d 354,
363 (4th Cir. 2013); United States v. Logan, No. 5:08CR-20-D, 2008 WL 11422532, at *7 (E.D.N.C. Sept. 4,
2008) (unpublished), aff’d in part, vacated in part, 395
F. App’x 38 (4th Cir. 2010) (per curiam) (unpublished);
Brown v. N.C. Div. of Motor Vehicles, 987 F. Supp.
451, 458 (E.D.N.C. 1997), aff’d, 166 F.3d 698 (4th Cir.
1999).
Alternatively, the Zitos underrate Hutto’s
analysis and overrate the strength of footnote nine in
First English. As for Hutto, the Fourth Circuit
provided a tight analogy from Supreme Court
precedent to support its holding. See Hutto, 773 F.3d
at 551-52. Just as states can invoke sovereign
immunity for tax disputes in federal court so long as a
state forum remains open, so too states can invoke
sovereign immunity for takings claims in federal court
so long as a state forum remains open. See id.; Reich

Appendix B-13
v. Collins, 513 U.S. 106, 110 (1994) (“[T]he sovereign
immunity [that] states enjoy in federal court, under
the Eleventh Amendment, does generally bar tax
refund claims from being brought in that forum,” but
state courts must hear suits to recover taxes
unlawfully extracted in violation of federal law
notwithstanding the “sovereign immunity [that]
[s]tates traditionally enjoy in their own courts.”); 3 cf.
Alden v. Maine, 527 U.S. 706, 740 (1999) (holding that
Congress, under Article I of the Constitution, cannot
subject nonconsenting states to private suits for
damages in state courts for allegedly violating federal
law, but declining to overrule Reich because the
obligation in Reich “arises from the Constitution
itself”). Moreover, the Fourth Circuit in Hutto
discussed two cases that rejected the Zitos’ proposed
resolution
between
the
self-executing
Just
Compensation Clause in the Fifth Amendment and
sovereign immunity in federal court in the Eleventh
Amendment. See Hutto, 773 F.3d at 553; Seven Up
Pete Venture v. Schweitzer, 523 F.3d 948, 954 (9th Cir.
3 In Reich, plaintiff was a retired federal military officer who sued
Georgia in Georgia state court seeking a refund of taxes that
Georgia imposed on plaintiff’s federal retirement benefits. See
Reich, 513 U.S. at 108. The Georgia tax scheme violated the
intergovernmental tax immunity doctrine dating back to
McCulloch v. Maryland, 4 Wheat. 316 (1819), and generally
codified at 4 U.S.C. § 111. See Reich, 513 U.S. at 108. The Georgia
Supreme Court refused to permit plaintiff to obtain a refund in
state court. See id. at 109-12. The United States Supreme Court
held that “a denial by a state court of a recovery of taxes exacted
in violation of the laws or Constitution of the United States by
compulsion is itself in contravention [of the Due Process Clause]
of the Fourteenth Amendment.” Id. at 109 (quotation omitted).
Thus, plaintiff could seek relief in Georgia state court for taxes
that Georgia improperly imposed on his federal retirement
benefits in violation of federal law. See id. at 108-112.

Appendix B-14
2008) (“[W]e conclude that the constitutionally
grounded self-executing nature of the Takings Clause
does not alter the conventional application of the
Eleventh Amendment”); DLX, Inc. v. Kentucky, 381
F.3d 511, 526 (6th Cir. 2004) (“Treating DLX’s claim
as a self-executing reverse condemnation claim, . . . we
conclude that the Eleventh Amendment’s grant of
immunity protects Kentucky from that claim . . . .”).
As for footnote nine in First English, footnote nine
cannot bear the weight that the Zitos place on it. See
First English, 482 U.S. at 316 n.9. First, footnote nine
is dicta in that the Court was responding not to a
principal argument of the parties, but rather to the
United States’ amicus brief. See id. Second, footnote
nine was not essential to deciding First English. See
id. Indeed, First English did not concern the Eleventh
Amendment or even mention it. Rather, in First
English, the Supreme Court reversed the California
First District Court of Appeal and held that a
landowner who claimed that his property has been
“taken” in violation of the Fifth and Fourteenth
Amendments by a “land-use regulation may [] recover
damages for the time before it is finally determined
that the regulation constitutes a ‘taking’ of his
property.” Id. at 306-07. In addition, the Hutto panel
analyzed Seven Up and DLX to explain the
significance of a state-court remedy to the Eleventh
Amendment’s self-executing nature and discussed
Reich and Alden to support its holding. See Hutto, 773
F.3d at 551-53; Seven Up, 523 F.3d 954-956; DLX, 381
F.3d at 526-28. Although the Hutto panel did not cite
First English, the Hutto panel grappled with the
issues that footnote nine in First English presented.
Accordingly, the court rejects the Zitos’ argument.

Appendix B-15
III.
A.
Because the Commission is asserting sovereign
immunity, it bears the burden of proving such
immunity. See Hutto, 773 F.3d at 542-43. The
Eleventh Amendment protects not only states, but
also “‘state agents and state instrumentalities,’ or in
other words, arms of the state.” Lane v. Anderson, 660
F. App’x 185, 195 (4th Cir. 2016) (per curiam)
(unpublished) (quoting Regents of the Univ. of Cal. v.
Doe, 519 U.S. 425, 429 (1997)). “The purpose of the
arm-of-state inquiry is to distinguish arms or alter
egos of the state from mere political subdivisions of
[the] State such as counties or municipalities, which,
though created by the state, operate independently
and do not share the state’s immunity.” U.S. ex rel.
Oberg v. Pa. Higher Educ. Assistance Agency, 804 F.3d
646, 651 (4th Cir. 2015) (alteration in original)
(quotation omitted); see Kitchen v. Upshaw, 286 F.3d
179, 184 (4th Cir. 2002). To determine whether a
state-created entity is an “arm of the state,” the court
considers four, non-exclusive factors:
(1) whether any judgment against the entity
as defendant will be paid by the State or
whether any recovery by the entity as plaintiff
will inure to the benefit of the State;
(2) the degree of autonomy exercised by the
entity, including such circumstances as who
appoints the entity’s directors or officers, who
funds the entity, and whether the State
retains a veto over the entity’s actions;

Appendix B-16
(3) whether the entity is involved with state
concerns as distinct from non-state concerns,
including local concerns; and
(4) how the entity is treated under state law,
such as whether the entity’s relationship with
the State is sufficiently close to make the
entity an arm of the State.
S.C. Dep’t of Disabilities & Special Needs v. Hoover
Universal, Inc., 535 F.3d 300, 303 (4th Cir. 2008)
(quotation and alteration omitted); see Lane, 660 F.
App’x at 195; Oberg, 804 F.3d at 650-51; Ram Ditta v.
Md. Nat’l Capital Park & Planning Comm’n, 822 F.2d
456, 457-58 (4th Cir. 1987). Although each factor is
significant, the most important, but not dispositive,
factor “is whether the state treasury will be
responsible for paying any judgement that might be
awarded.” Hutto, 773 F.3d at 543 (quotation omitted);
see Lane, 660 F. App’x at 195; United States ex rel.
Oberg v. Pa. Higher Educ. Assistance Agency, 745 F.3d
131, 137 n.4 (4th Cir. 2014); Ram Ditta, 822 F.2d at
457. When factors conflict, the twin reasons for the
Eleventh Amendment—protecting state treasuries
and respecting state sovereign dignity—must guide
the analysis. See Oberg, 804 F.3d at 676; Gray v. Laws,
51 F.3d 426, 432 (4th Cir. 1995). At bottom, the court
must “determine whether the governmental entity is
so connected to the State that the legal action against
the entity would . . . amount to ‘the indignity of
subjecting a State to the coercive process of judicial
tribunals at the instance of private parties.’” Cash v.
Granville Cty. Bd. of Educ., 242 F.3d 219, 224 (4th Cir.
2001) (quoting Seminole Tribe v. Florida, 517 U.S. 44,
58 (1996)).

Appendix B-17
As for the first factor concerning responsibility for
judgments, the finances of the Commission and North
Carolina are intertwined. The Commission, along
with the DCM and larger CAMA programs, “receive[s]
funding from the North Carolina General Assembly
(“NCGA”), federal grants and appropriations, and
permit revenue,” which become state funds when
deposited in State Treasury accounts. Davis Dec.
[D.E. 14-2] ¶ 10; see N.C. Gen. Stat. §§ 143C-11(d)(25). Ultimately, the Commission’s budget is part
of the Governor’s budget, and not independent of the
state. See Davis Dec. at ¶ 11; N.C. Gen. Stat. §§ 143C3-3(a), 3-5(a), and 5-4(b). The Commission does not
administer its own accounts. Rather, the state does.
See N.C. Gen. ·Stat. § 147-77. Likewise, the
Commission does not “own any property or have any
resources apart from the state with .which to pay a
judgment.” Davis Dec. at ¶ 12. Moreover, with any
judgment serving as an “unbudgeted expense” for the
Commission, the state would feel the effect directly
through its Treasury because “the State is the
Commission’s exchequer.” [D.E. 38] 12; see Davis Dec.
at ¶ 13. Although the state is not explicitly liable for
the Commission’s liability, the state is functionally
liable for any judgment. See Oberg, 804 F.3d at 658
(“A state may also be functionally liable if the funds
available to pay any judgment effectively belong to the
state rather than the agency.”). Thus, the first factor
strongly favors the Commission.
As for the second factor concerning autonomy, the
Commission is not autonomous. In analyzing
autonomy, the court considers “the degree of
autonomy exercised by the entity, including such
circumstances as who appoints the entity’s directors

Appendix B-18
or officers, who funds the entity, and whether the
State retains a veto over the entity’s actions.” Oberg,
804 F.3d at 668 (quotation omitted). Both the
appointment and funding considerations reveal that
the Commission lacks autonomy. Either the Governor
or the NCGA appoints its directors, see N.C. Gen. Stat.
§§113A-104(b1) and 104(i), and the NCGA funds the
Commission as part of the Governor’s budget. See N.C.
Gen. Stat. §§ 143C-3-3(a), 3-5(a), and 5-4(b). Although
the Governor and the NCGA lack an explicit veto over
the Commission’s actions, the Attorney General of
North Carolina serves as the Commission’s attorney
and approves use of private counsel and any
settlement over $75,000. See N.C. Gen. Stat. §§ 113A124(d), 114-2.3, and 114-2.4.
As for the third factor concerning statewide
concern, the Commission regulates the coastal areas
of North Carolina and thereby affects areas of statewide importance. See Adams v. N.C. Dep’t of Nat. &
Econ. Res., 295 N.C. 683, 691-93, 249 S.E.2d 402, 40708 (1978); Oberg, 804 F.3d at 674. As for the fourth
factor concerning the entity’s treatment under state
law, North Carolina treats the Commission as if it
were part of the state in several ways. For example,
the NCGA created the Commission. See N.C. Gen.
Stat. § 113A-104. Good governance laws such as the
State Government Ethics Act apply to the
Commission. See N.C. Gen. Stat. § 113A-104(c2).
North Carolina’s Administrative Procedure Act
applies to the Commission. See N.C. Gen. Stat.
§§ 113A-121.1(a), 150B-2(1a). Thus, all four factors
weigh in favor of granting the Commission sovereign
immunity.

Appendix B-19
Because the Commission has proven that it is an
arm of the state and has sovereign immunity under
the Eleventh Amendment, the burden shifts to the
Zitos to prove that the Commission has waived its
sovereign immunity, or that the Commission’s
sovereign immunity has been abrogated. See Williams
v. Big Picture Loans, LLC, 929 F.3d 170, 177 (4th Cir.
2019) (“Once a defendant has [proven that it is an arm
of the state], the burden to prove that immunity has
been abrogated or waived would then fall to the
plaintiff.”). As for waiver, the Zitos have alleged no
facts to demonstrate that the Commission has clearly
and unequivocally waived immunity to a federal
takings claims in federal court. See, e.g., Port Auth.
Trans-Hudson Corp. v. Feeney, 495 U.S. 299, 305-06
(1990); Atascadero State Hosp. v. Scanlon, 473 U.S.
234, 241 (1985), superseded by statute, 42 U.S.C.
§ 2000d-7; Pennhurst State Sch. & Hosp. v.
Halderman, 465 U.S. 89, 99 (1984); Pense v. Md. Dep’t
of Pub. Safety & Corr. Servs., 926 F.3d 97, 101 (4th
Cir. 2019). As for abrogation, the Zitos argue that the
self-executing nature of the Fifth Amendment means
that Congress need not provide statutory
abrogation—the Fourteenth Amendment already did
so itself. See [D.E. 42] 10-11; cf. Kimel v. Fla. Bd. of
Regents, 528 U.S. 62, 73 (2000) (“To determine
whether a federal statute properly subjects States to
suits by individuals, we apply a simple but stringent
test:
Congress
may
abrogate
the
States’
constitutionally secured immunity from suit in federal
court only by making its intention unmistakably clear
in the language of the statute.”) (quotation omitted).
However, Hutto forecloses this argument. See Hutto,
773 F.3d at 551-552. Accordingly, the Commission has

Appendix B-20
not waived its sovereign immunity, and it has not
been abrogated.
B.
North Carolina also provides a forum to
adjudicate the Zitos’ takings claim. Under Hutto, a
state court must remain available to hear a takings
claim in order for a state to enjoy sovereign immunity
in federal court. See Hutto, 773 F.3d at 551-552. Here,
the Zitos can seek relief under both the state statutory
scheme and the North Carolina Constitution. As for
the state statutory scheme, N.C. Gen. Stat. § 113A123 grants the ability to challenge Commission
actions in state court, setting numerous procedural
requirements that include venue, statute of
limitations, and a jury-trial right, among others. See
N.C. Gen. Stat. § 113A-123(b). If a state court finds a
taking, the Commission may petition the Department
of Administration to begin eminent domain
proceedings. See N.C. Gen. Stat. § 113A-123(c). Under
N.C. Gen. Stat. § 113A-123, the state compensates a
property owner only as part of the eminent domain
proceedings that can be triggered after a court
invalidates a taking. Cf. id.; see N.C. Gen. Stat. §§ 14624(c), 136-103(b)(5). That statute also provides that
“[t]he method provided in this subsection for the
determination of the issue of whether such order
constitutes a taking without compensation shall be
exclusive and such issue shall not be determined in
any other proceeding.” N.C. Gen. Stat. § 113A-123(b)
(emphasis added).
The Zitos construe the eminent domain and
exclusivity portions of N.C. Gen. Stat. § 113A-123 to
mean that North Carolina is not open to their state

Appendix B-21
takings claim. See [D.E. 42] 12-16. According to the
Zitos, N.C. Gen. Stat. § 113A-123 only invalidates
regulatory actions by the Commission, making the
taking temporary until eminent domain proceedings
occur. Cf. First English, 482 U.S. at 319 (“Invalidation
of the ordinance or its successor ordinance after this
period of time, though converting the taking into a
‘temporary’ one, is not a sufficient remedy to meet the
demands of the Just Compensation Clause.”). Section
113A-123(c) does provide monetary compensation
once such eminent domain proceedings have run their
course; however, the Zitos argue that they require
monetary compensation in the meantime for the
denial of the permit that resulted in a temporary loss
of value of their property. See [D.E. 42] 14-15.
Coupling the temporary-taking gap in the broader
statutory scheme with the “exclusive” nature of the
N.C. Gen. Stat. § 113A-123(b), the Zitos assert that
North Carlina state courts are closed to claims such
as the one at issue here.
The court rejects the Zitos’ argument. The Zitos
misconstrue the term “exclusive” in N.C. Gen. Stat.
§ 113A-123(b) and ignore that a plaintiff can recover
monetary compensation in state court under the
North Carolina Constitution for a temporary taking.
As for exclusivity, the “exclusive” in N.C. Gen. Stat.
§ 113A-123(b) applies to “whether such order
constitutes a taking without compensation,” meaning
that the procedure that the statutory scheme
describes shall be exclusive. N.C. Gen. Stat. § 113A123(b) (emphasis added). Moreover, that procedure is
the “method provided in this subsection for the
determination of the issue,” which includes “a jury
trial on all issues of fact” and other procedural

Appendix B-22
provisions. Id. Thus, the procedural method outlined
in N.C. Gen. Stat. § 113A-123(a) and (b) is exclusive
for determining whether a taking occurred. See Weeks
v. N.C. Dep’t of Nat. Res. & Cmty. Dev., 97 N.C. App.
215, 223, 388 S.E.2d 228, 233 (1990) (“[T]he statute’s
‘method’ contemplates both legal and factual
determinations only of whether a ‘taking’ occurred.”).
However, N.C. Gen. Stat. § 113A-123(b) does not
require that the remedies provided by the statutory
scheme, invalidation of a taking and monetary
compensation as part of eminent domain proceedings,
are exclusive. See N.C. Gen. Stat § 113A-123(b).
As for other remedies, although the Zitos correctly
note that N.C. Gen. Stat. § 113A-123(b) does not
provide a monetary remedy for temporary takings
during the eminent domain procedure, the North
Carolina Constitution provides such a remedy.
Notably, the North Carolina Constitution does not
expressly prohibit governments from taking private
property for public use without just compensation, but
the Supreme Court of North Carolina has found such
a prohibition in the Law of the Land Clause. See, e.g.,
Finch v. City of Durham, 325 N.C. 352, 362-63, 384
S.E.2d 8, 14 (1989). The Supreme Court of North
Carolina uses the same standard for determining
whether a government took property in violation of
the North Carolina Constitution as the Supreme
Court of the United States uses to assess a Fifth
Amendment takings claim. See, e.g., id. at 371-72, 384
S.E.2d at 19; N.C. Dep’t of Transp. v. Cromartie, 214
N.C. App. 307, 314-15, 716 S.E.2d 361, 367 (2011);
Adams Outdoor Advert. v. N.C. Dep’t of Transp., 112
N.C. App. 120, 122, 434 S.E.2d 666, 667 (1993). Thus,
the Zitos can sue under the Law of the Land Clause of

Appendix B-23
the North Carolina Constitution, which states in
relevant part: “No person shall be taken, imprisoned,
or disseized of his freehold, liberties, or privileges, or
outlawed, or exiled, or in any manner deprived of his
life, liberty, or property, but by the law of the land.”
N.C. Const. art. I, § 19.
The Zitos’ takings claim cannot be remedied fully
under N.C. Gen. Stat. § 113A-123 because the eminent
domain procedures fail to compensate for the
temporary loss in value during the duration of the
proceedings. The Supreme Court of North Carolina,
however, has recognized “inverse condemnation”
claims, similar to the regulatory taking at issue here,
as allowing for damages. See Finch, 325 N.C. at 36263, 384 S.E.2d. at 14; Longy v. City of Charlotte, 306
N.C. 187, 195-96, 293 S.E.2d 101, 107-08 (1982),
superseded on other grounds by statute, Act of July 10,
1981, ch. 919, sec. 28, 1981 N.C. Sess. Laws 1382,
1402; see also Kirby v. N.C. Dep’t of Transp., 368 N.C.
847, 855-56, 786 S.E.2d 919, 925-26 (2016). Moreover,
North Carolina courts have allowed “vested rights
claims,” which are “rooted in the due process of law
and the law of the land clauses of the federal and state
constitutions,” to proceed as claims under the North
Carolina Constitution in the context of zoning claims.
Godfrey v. Zoning Bd. of Adjustment, 317 N.C. 51, 62,
344 S.E.2d 272, 279 (1986) (quotation omitted)
(emphasis added); see Swan Beach Corolla, L.L.C. v.
Cty. of Currituck, 244 N.C. App. 545, 781 S.E.2d 350,
2015 WL 8747777, at *3-4 (2015) (unpublished table
opinion). Thus, North Carolina provides a forum to
adjudicate the Zitos’ takings claim.

Appendix B-24
C.
This case raises two significant issues concerning
the effect of Hutto. First, Hutto’s state court remedy
requirement is in tension with the Supreme Court’s
reasoning in Knick. Second, Hutto concerned a federal
takings claim in federal court, but did not mention
litigating a federal takings claim in state court. As for
Hutto’s tension with Knick, the Court in Knick
removed the state-litigation requirement that had
forced litigants to file their takings claims under state
law in state court before pursuing a takings claim in
federal court. See Knick, 139 S Ct. at 2167-68. Hutto,
however, still forces litigants who wish to pursue a
takings claim under the Fifth Amendment into state
courts. See Hutto, 773 F.3d at 551-52.
Of course, the Court in Knick did not consider
sovereign immunity under the Eleventh Amendment
because Knick involved a suit between a private
property owner and a locality that was not entitled to
sovereign immunity under the Eleventh Amendment.
Knick, 139 S. Ct. at 2167-71; Bay Point Properties, Inc.
v. Miss. Transp. Comm’n, 937 F.3d 454, 456-57 (5th
Cir.), petition for cert. filed, No. 19-798 (2019);
Williams v. Utah Dep’t of Corr., 928 F.3d 1209, 1214
(10th Cir. 2019). But in reiterating the self-executing
nature of the Just Compensation Clause, the Court in
Knick foreshadows the day when the Court will have
to address the interplay between the Fifth
Amendment’s Just Compensation Clause and the
Eleventh Amendment. Cf. Knick, 139 S. Ct at 2171;
Lumbard v. City of Ann Arbor, 913 F.3d 585, 591 (6th
Cir.) (Kethledge, J., concurring) (“But the Takings
Clause does not say that private property shall not ‘be

Appendix B-25
taken for public use, without just compensation, and
without remedy in state court.’ Instead the Clause
says that private property shall not ‘be taken for
public use, without just compensation’ period.”), cert.
denied, 140 S. Ct. 267 (2019). Although Hutto binds
this court, the court recognizes the force of the Zitos’
arguments, notes the significant constitutional issues
that the Zitos raise, and acknowledges that “the
guarantee of a federal forum rings hollow for takings
plaintiffs, who are forced to litigate their claims in
state court.” Knick, 139 S. Ct. at 2167.
As for litigating a federal takings claim in state
court, Hutto does not foreclose a state forum for a
federal takings claim. See Hutto, 773 F.3d at 552
(“[W]e conclude that the Eleventh Amendment bars
Fifth Amendment taking claims against States in
federal court when the State’s courts remain open to
adjudicate such claims.” (emphasis omitted)). State
courts can hear federal constitutional claims just like
federal courts. See, e.g., Yellow Freight Sys., Inc. v.
Donnelly, 494 U.S. 820, 823 (1990); Tafflin v. Levitt,
493 U.S. 45S, 458-59 (1990); Gulf Offshore Co. v.
Mobil Oil Corp., 453 U.S. 473, 477-78 (1981). Whether
the Commission successfully can invoke sovereign
immunity for a federal takings claim in state court is
a different question for a different court on a different
day. Cf. Howlett v. Rose, 496 U.S. 356, 367-81 (1990)
(holding that a state court cannot use state law
sovereign immunity to decline jurisdiction over an
action for money damages under 42 U.S.C. § 1983,
where state courts entertained similar state-law
actions against state defendants); Will v. Mich. Dept.
of State Police, 491 U.S. 58, 65-66 (1989) (holding that
a State is not a “person” against whom a claim for

Appendix B-26
money damages under 42 U.S.C. § 1983 can be
asserted); Long, 306 N.C. at 203, 293 S.E.2d at 11112; Beroth Oil Co. v. N.C. Dep’t of Transp., 220 N.C.
App. 419, 432-33, 72S S.E.2d 651, 660-61 (2012), aff’d
in part, vacated in part, 367 N.C. 333, 757 S.E.2d 466
(2014). Nonetheless, this court dismisses the Zitos’
complaint without prejudice, and this dismissal does
not affect the Zitos’ ability to assert a takings claim in
state court directly under the Fifth and Fourteenth
Amendments 4 or under 42 U.S.C. § 1983. 5
IV.
In sum, the court GRANTS the Commission’s
motion to dismiss [D.E. 36] and DISMISSES the
complaint WITHOUT PREJUDICE for lack of subjectmatter jurisdiction. The court DENIES as moot the
Federation’s motion to intervene [D.E. 24] and the
Zitos’ motion to clarify the stipulated administrative
facts [D.E. 46].
SO ORDERED. This 27 day of March 2020.
/s/ James C. Dever
JAMES C. DEVER III
United States District Judge

See First English, 482 U.S. at 316 n.9; Lawyer v. Hilton Head
Pub. Servs. Dist. No. 1, 220 F.3d 298, 302 n.4 (4th Cir. 2000);
Mann v. Haigh, 120 F.3d 34, 37 (4th Cir. 1997); Sansotta, 97 F.
Supp. 3d at 728 n.4.
4

See City of Monterey v. Del. Monte Dunes at Monterey, Ltd., 526
U.S. 687, 709-22 (1999); Sansotta, 97 F. Supp. 3d at 728 n.4.

5

